Pennsylvania Guidance for
Mail-in and Absentee
Ballots Received from the
United States Postal
Service after 8:00 p.m. on
Tuesday, November 3,
2020
Date: October 28, 2020

Version: 1.0

In recognition of documented United States Postal Service (“USPS”) delays and citing the Pennsylvania
Constitution’s Free and Equal Elections Clause’s guarantee of free exercise of the right to suffrage, on
September 17, 2020, the Pennsylvania Supreme Court (i) held that absentee and mail-in ballots mailed by
voters via the USPS and postmarked by 8:00 p.m. on Tuesday, November 3, 2020 shall be counted if they
are otherwise valid and received by the county boards of election on or before 5:00 p.m. on Friday,
November 6, 2020, and (ii) further held that ballots received within this period that lack a postmark or
other proof of mailing, or for which the postmark or other proof of mailing is illegible, will be presumed to
have been mailed by 8:00 p.m. on November 3 unless a preponderance of the evidence demonstrates that
the ballot was mailed after such time.
Certain parties asked the United States Supreme Court to stay the Pennsylvania Supreme Court’s decision.
The United States Supreme Court denied that request on October 19, 2020. Therefore, the Pennsylvania
Supreme Court’s ruling, summarized above, remains the law.
On Friday, October 23, 2020, certain parties petitioned the U.S. Supreme Court for a writ of certiorari,
asking that Court to vacate the Pennsylvania Supreme Court’s September 17 decision and eliminate the
three-day extension. Those parties also filed a motion for expedited consideration of their petition. On
Monday, October 26, 2020, Secretary Boockvar filed a response to the motion. At this time, both the
petition and motion remain pending before the U.S. Supreme Court.
The Secretary continues to defend the extension to ensure that every timely and validly cast mail-in and
absentee ballot is counted. Because this issue is still-pending before the U.S. Supreme Court, however,
county boards of elections are directed to take the following action to securely segregate mail-in and
civilian absentee ballots received by the county board before 8:00 p.m. on November 3 from those
received via USPS after 8:00 p.m. on November 3 and before 5:00 p.m. on Friday, November 6:

1) All mail-in and civilian absentee ballots delivered by the USPS and received between 8:00
p.m. on Tuesday, November 3, 2020 and 5:00 p.m. on Friday, November 6, 2020 shall be
kept separate and segregated from all other voted ballots.
2) The county boards of elections shall not pre-canvass or canvass any mail-in or civilian
absentee ballots received between 8:00 p.m. on Tuesday, November 3, 2020 and 5:00 p.m.
on Friday, November 6, 2020 until further direction is received. These ballots shall be
maintained by the county board in a secure, safe and sealed container separate from other
voted ballots.
3) For every ballot delivered to the county board by the USPS between 8:00 p.m. on Tuesday,
November 3, 2020 and 5:00 p.m. on Friday, November 6, 2020, each county board shall
maintain an accurate log of the date upon which the ballot was delivered by the USPS to
the county board of elections. The log shall include (i) the name and address of the
elector, (ii) the date of delivery by the USPS, (iii) whether the ballot return envelope has a
legible postmark, and (iv) the postmark date, when present and legible.

Page 2 of 3

